Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




        NEW JERSEY MEDICAID
       PROGRAM COULD ACHIEVE
        SAVINGS BY REDUCING
        HOME BLOOD-GLUCOSE
          TEST STRIP PRICES


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                     September 2013
                                                      A-02-12-01010
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In New Jersey, the Department of Human
Services (State agency) administers the Medicaid program through a traditional fee-for-service
model as well as through four contracted managed care organizations (MCOs).

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
home blood-glucose test strips (test strips) that physicians prescribe for diabetics. The amount
allowed for payment of test strips is generally equal to the lesser of the Medicare fee schedule
amount or the amount charged by a supplier. Although CMS has established ceiling prices for
test strips, significantly lower prices may be available for retail store brands.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
mandated the establishment of a Medicare competitive acquisition program (competitive bidding)
under which prices for selected medical supplies, including mail-order test strips, sold in specified
competitive bidding areas would be determined by suppliers’ bids rather than a fee schedule. The
program was operational in nine metropolitan areas as of January 1, 2011.

Pursuant to section 1915(a)(1)(B) of the Act and requirements established in 42 CFR §§ 431.51(d)
and 431.54(d), the Medicaid agency may establish special procedures for the purchase of medical
devices through a competitive bidding process or otherwise, if the State assures and CMS finds
that adequate services or devices are available to recipients under the special procedures.

New Jersey Administrative Code sections 10:51 and 10:59 provide for the coverage of diabetic
testing supplies, including test strips. The State agency reimburses providers the lesser of the
usual and customary charge or the Medicaid fee for each item. Additionally, contracts between
the State agency and the MCOs list diabetic testing supplies as a covered benefit provided to
eligible beneficiaries. The monthly Medicaid capitation payment that the State agency makes to
an MCO for each eligible beneficiary includes these supplies.

During the period January 1, 2011, through December 31, 2011, the State agency made Medicaid
fee-for-service payments totaling $3,924,767 for test strips. During this same period, the four
Medicaid MCOs in New Jersey paid providers $6,441,851 for test strips.




                                                 i
OBJECTIVE

Our objective was to determine whether the State agency could achieve Medicaid program
savings for test strips.

SUMMARY OF FINDINGS

The New Jersey Medicaid program could have achieved savings of approximately $1.8 million
to $2.7 million during the period January 1, 2011, through December 31, 2011, by reducing test
strip reimbursement rates to retail rates or by establishing a competitive bidding program for test
strips. Specifically, we determined that retail prices for 50-unit packages of test strips were
lower than the State agency’s average Medicaid fee-for-service reimbursement rate. We also
determined that the Medicare reimbursement rates for mail-order test strips obtained through
competitive bids were lower than the State agency’s average Medicaid fee-for-service
reimbursement rate. Decreasing the Medicaid fee-for-service reimbursement rate to average
retail price levels or establishing a competitive bidding mail-order program similar to the
Medicare program could result in a 46- to 68-percent reduction in the price of test strips paid
under the New Jersey Medicaid fee-for-service program.

Additionally, the average reimbursement rate for a 50-unit package of test strips paid by the 4
Medicaid MCOs in New Jersey was significantly higher than both retail test strip prices and the
Medicare reimbursement rates obtained through competitive bids. Specifically, during the
period January 1, 2011, through December 31, 2011, total MCO reimbursement for test strips
was $3.1 million and $4.5 million greater than retail prices and Medicare payment rates,
respectively. Decreasing MCO reimbursement rates for test strips to the average retail price or
establishing a competitive bidding mail-order program similar to the Medicare program could
result in a 49- to 70-percent reduction in the price of test strips paid by the four New Jersey
Medicaid MCOs and additional savings to the New Jersey Medicaid program.

RECOMMENDATIONS

We recommend that the State agency consider:

    •   reducing the Medicaid fee-for-service reimbursement rate for test strips to be comparable
        to the average retail price or establishing a competitive bidding program similar to
        Medicare for the purchase of test strips, which could have resulted in savings to the
        New Jersey Medicaid fee-for-service program of $1.8 million to $2.7 million during the
        period January 1, 2011, to December 31, 2011, and

    •   working with the four Medicaid MCOs to adjust payment rates for test strips to the
        average retail price or to Medicare competitive payment rates, which could have reduced
        MCO test strip prices by a total of $3.1 million to $4.5 million during the period
        January 1, 2011, to December 31, 2011.




                                                 ii
STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency disagreed with our recommendations.
Regarding our first recommendation, the State agency indicated that our estimate of Medicaid
fee-for-service savings would not have been realized because more than 90 percent of New
Jersey’s Medicaid beneficiaries are currently enrolled in an MCO. Regarding our second
recommendation, the State agency indicated that the decision to implement the recommended
MCO test-strip pricing rests with each MCO.

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. We arrived at our estimate of Medicaid fee-for-service savings by
comparing Medicaid fee-for-service payments the State agency made for test strips provided
during the period January 1, 2011, through December 31, 2011, to retail test strip prices and to
the highest Medicare competitive bidding area payment rate. The analysis to determine whether
savings could be achieved if the MCOs reduced test strip reimbursement rates was done at the
request of the State agency. The State agency indicated that it could use the information to work
with the MCOs to lower MCO test strip payment rates, which would lead to the State agency
making lower monthly Medicaid capitated payments, as well as savings to the Medicaid
program.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicaid Program ..........................................................................................1
              Federal and State Requirements.....................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope ..............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          MEDICARE COMPETITIVE BIDDING PROGRAM ............................................4

          COST SAVINGS FOR THE NEW JERSEY
           MEDICAID FEE-FOR-SERVICE PROGRAM....................................................4

          COST SAVINGS FOR NEW JERSEY’S
           MEDICAID MANAGED CARE ORGANIZATIONS .........................................6

          RECOMMENDATIONS ...........................................................................................7

          STATE AGENCY COMMENTS ..............................................................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................8

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                               INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements.

In New Jersey, the Department of Human Services (State agency) administers the Medicaid
program, offering benefits to eligible beneficiaries through a traditional fee-for-service model as
well as through four contracted managed care organizations (MCOs). The State agency uses the
Medicaid Management Information System (MMIS), a computerized payment and information
reporting system, to process and pay Medicaid claims.

Federal and State Requirements

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
home blood-glucose test strips (test strips) that physicians prescribe for diabetics. The amount
allowed for payment of test strips is generally equal to the lesser of the Medicare fee schedule
amount or the amount charged by a supplier. Although CMS has established ceiling prices for
test strips, significantly lower prices may be available for retail store brands (e.g., Wal-Mart,
Walgreens, and CVS).

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
mandated the establishment of a Medicare competitive bidding program (competitive bidding) under
which prices for selected medical supplies, including mail-order test strips, sold in specified
competitive bidding areas (CBA) would be determined by suppliers’ bids rather than a fee schedule.
The program was operational in nine metropolitan areas as of January 1, 2011. 1

Pursuant to section 1915(a)(1)(B) of the Act and requirements established in 42 CFR §§ 431.51(d)
and 431.54(d), the Medicaid agency may establish special procedures for the purchase of medical
devices through a competitive bidding process or otherwise, if the State assures and CMS finds
that adequate services or devices are available to recipients under the special procedures.

New Jersey Administrative Code sections 10:51 and 10:59 provide for the coverage of diabetic
testing supplies, including test strips. The State agency reimburses providers the lesser of the
usual and customary charge or the Medicaid fee for each item. Additionally, contracts between
the State agency and the MCOs list diabetic testing supplies as a covered benefit provided to
eligible beneficiaries. The monthly Medicaid capitation payment that the State agency makes to
1
    New Jersey is not currently one of the nine CBAs.


                                                        1
an MCO for each eligible beneficiary includes these supplies. The State agency does not obtain
manufacturer rebates for diabetic testing supplies. 2

During the period January 1, 2011, through December 31, 2011, the State agency made Medicaid
fee-for-service payments totaling $3,924,767 for test strips. During this same period, the four
Medicaid MCOs in New Jersey made payments to providers totaling $6,441,851 for test strips.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency could achieve Medicaid program
savings for test strips.

Scope

Our audit covered Medicaid fee-for-service payments made by the State agency, totaling
$3,924,767, for 79,861 50-unit packages of test strips supplied to beneficiaries during the period
January 1, 2011, through December 31, 2011, and billed to the Medicaid program with procedure
code A4253 or the applicable National Drug Codes (NDCs). 3 In addition, we reviewed
payments totaling $6,441,851 that New Jersey’s 4 Medicaid MCOs made to providers for
123,782 50-unit test strip packages supplied to beneficiaries during the period January 1, 2011,
through December 31, 2011.

We did not review the overall internal control structure of the State agency. Rather, we limited
our internal control review to obtaining an understanding of the State agency’s test strips
reimbursement policies.

We performed fieldwork from April through August 2012.

Methodology

To accomplish our audit objective, we:

    •   reviewed applicable Federal and State laws and regulations;

    •   obtained an understanding of New Jersey’s diabetic supply program;




2
  Our report, Indiana Reduced Medicaid Costs for Home Blood-Glucose Test Strips by Approximately 50 Percent
Using Manufacturer Rebates (A-05-12-00011), described a selective contracting program to obtain manufacturer
rebates for test strips and reduce State expenditures, for which the Indiana Medicaid program obtained a waiver
from CMS.

3
 The figure includes $138,503 for 3,811 50-unit packages billed with procedure code A4253 and $3,786,264 for
76,050 50-unit packages billed with the applicable NDCs.


                                                        2
   •   extracted 38,980 fee-for-service claims from the New Jersey MMIS for 79,861 50-unit
       packages of test strips totaling $3.9 million supplied during the period January 1, 2011,
       through December 31, 2011;

   •   obtained 58,801 managed care encounter data claims from the State agency for 123,782
       50-unit packages of test strips totaling $6.4 million supplied to beneficiaries enrolled in a
       Medicaid MCO during the period January 1, 2011, through December 31, 2011;

   •   identified the Medicare payment rates for test strips in nine CBAs;

   •   identified the average retail price for a 50-unit package of test strips charged by 4 major
       retailers;

   •   determined the approximate savings the State agency could achieve if it reduced
       Medicaid fee-for-service reimbursement rates for test strips to the average retail price;

   •   determined the approximate savings the State agency could achieve if it implemented a
       competitive bidding program by comparing its average reimbursement rate for test strips
       with the highest Medicare CBA test strip payment rate;

   •   determined the approximate savings the four New Jersey Medicaid MCOs could achieve
       if they reduced reimbursement rates for test strips to the average retail price; and

   •   determined the approximate savings the four New Jersey Medicaid MCOs could achieve
       if they implemented a competitive bidding program by comparing the MCOs’ average
       reimbursement rate for test strips with the highest Medicare test strip payment rate.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The New Jersey Medicaid program could have achieved savings of approximately $1.8 million
to $2.7 million during the period January 1, 2011, through December 31, 2011, by reducing the
Medicaid fee-for-service reimbursement rate for test strips to retail rates or by establishing a
competitive bidding program for test strips. Cost savings for test strips paid by the four
Medicaid MCOs in New Jersey are also possible and could result in additional savings to the
New Jersey Medicaid program. Specifically, during the period January 1, 2011, through
December 31, 2011, total MCO reimbursement for tests strips was $3.1 million and $4.5 million
greater than retail prices and Medicare payment rates, respectively.




                                                 3
We determined that both the retail prices for test strips and Medicare reimbursement rates for
mail-order test strips obtained through competitive bids in the nine CBAs were lower than the
State agency’s average Medicaid fee-for-service reimbursement rate. Specifically, for a 50-unit
package of test strips, the average retail price was $26.74 and the highest Medicare CBA
payment rate was $15.62, whereas New Jersey’s average Medicaid fee-for-service
reimbursement rate was $49.14. 4 Decreasing the Medicaid fee-for-service reimbursement rate to
average retail price levels or establishing a competitive bidding mail-order program similar to the
Medicare program could result in a 46- to 68-percent reduction in the price of test strips paid
under the New Jersey Medicaid fee-for-service program.

Additionally, the average reimbursement rate for a 50-unit package of test strips paid by the 4
Medicaid MCOs in New Jersey was significantly higher than retail test strip prices and the
Medicare reimbursement rates for mail-order test strips obtained through competitive bids in the
9 CBAs. Specifically, the MCOs’ average reimbursement rate for a 50-unit package of test strips
provided during the period January 1, 2011, through December 31, 2011, was $52.04, compared
with $26.74 (average retail store brand price) and $15.62 (highest Medicare CBA payment rate).
Decreasing MCO reimbursement rates for test strips to the average retail price or establishing a
competitive bidding mail-order program similar to the Medicare program could result in a 49- to
70-percent reduction in the price of test strips paid by the four New Jersey Medicaid MCOs. As
a result, the New Jersey Medicaid program could achieve potential additional savings through
lower monthly Medicaid capitation payments.

MEDICARE COMPETITIVE BIDDING PROGRAM

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers test
strips that physicians prescribe for diabetics. The amount allowed for payment of test strips is
generally equal to the lesser of the Medicare fee schedule amount or the amount charged by a
supplier.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
mandated the establishment of a Medicare competitive bidding program under which prices for
selected medical supplies, including mail-order test strips, sold in specified CBAs would be
determined by suppliers’ bids rather than a fee schedule. The program set lower payment amounts
for medical supply items while ensuring continued access to quality items and services. The
intended result was to reduce beneficiaries’ out-of-pocket expenses and create savings for
taxpayers and the Medicare program. As of January 1, 2011, the Medicare competitive bidding
program was operational in nine CBAs.

COST SAVINGS FOR THE NEW JERSEY
MEDICAID FEE-FOR-SERVICE PROGRAM

The State agency could achieve savings for test strips by reducing the rate it pays for test strips
or by establishing a competitive bidding program similar to the Medicare program. We
determined that both retail test strip prices and Medicare prices obtained through competitive

4
  The average reimbursement rate for a 50-unit package of test strips billed with procedure code A4253 was $36.34;
for packages billed with an NDC, the average rate was $49.79.


                                                        4
bids were lower than New Jersey’s average Medicaid fee-for-service reimbursement rate. The
average retail price for a 50-unit package of test strips charged by for 4 major retailers 5 in 2011
was $26.74, whereas New Jersey’s average Medicaid fee-for-service reimbursement rate for test
strips provided during the period January 1, 2011, through December 31, 2011, was $49.14, a
difference of $22.40 per package. In addition, the highest Medicare CBA payment rate for a
50-unit package of test strips in 2011 was $15.62, a difference of $33.52 per package.

On the basis of our review of New Jersey’s Medicaid fee-for-service test strip payments, retail
test strip prices, and Medicare CBA payment rates, the State agency could achieve savings of
approximately $1.8 to $2.7 million. Specifically, reducing Medicaid fee-for-service test strip
prices to retail levels or establishing a competitive bidding program similar to the Medicare
program could result in a 46- to 68-percent reduction in the cost of test strips paid under the
New Jersey Medicaid fee-for-service program.

Tables 1 and 2 detail cost savings that could have been achieved through reducing New Jersey’s
reimbursement rates for test strips to the average retail rate or the rate available under the
Medicare CBA program, respectively.

                Table 1: Cost Savings Achieved by Reducing Medicaid Fee-For-Service
                            Reimbursement Rates to Average Retail Rate

                                            New Jersey
                                             Medicaid                Average Retail    Cost Savings
                                          Fee-For-Service                Price         (Difference)
         Reimbursement rate
                                                        $49.14                $26.74          $22.40
         (50-unit pack)
         Reimbursement rate
                                                           0.98                 0.53             0.45
         (per unit)
             Total*
                                                  $3,924,767              $2,135,683       $1,789,084
             (3,993,050 units)
        *
            Differences in total calculations are due to rounding.




5
    CVS, Target, Walgreens, and Wal-Mart.


                                                              5
         Table 2: Cost Savings Achieved by Establishing Competitive Bidding Program

                                         New Jersey                  Highest
                                          Medicaid                Medicare CBA     Cost Savings
                                       Fee-For-Service            Payment Rate     (Difference)
      Reimbursement rate
                                                     $49.14               $15.62          $33.52
      (50-unit pack)
      Reimbursement rate
                                                        0.98                0.31             0.67
      (per unit)
          Total*
                                               $3,924,767             $1,247,429       $2,677,338
          (3,993,050 units)
     *
         Differences in total calculations are due to rounding.

COST SAVINGS FOR NEW JERSEY’S
MEDICAID MANAGED CARE ORGANIZATIONS

Cost savings for test strips paid by the four Medicaid MCOs in New Jersey are also possible and
could result in additional savings to the New Jersey Medicaid program. Specifically, we
determined that the average MCO reimbursement rate for a 50-unit package of test strips was
significantly higher than both the average retail price and the Medicare reimbursement rates for
mail-order test strips obtained through competitive bids. As detailed in Table 3, the average
MCO reimbursement rate for a 50-unit package of test strips provided during the period
January 1, 2011, through December 31, 2011, was $52.04, whereas the average retail price for a
50-unit package of test strips was $26.74, a difference of $25.30 per package. In addition, the
average MCO reimbursement rate was $36.42 greater than the highest Medicare CBA payment
rate in 2011.

Based on our review of payments made by the four New Jersey Medicaid MCOs for test strips,
retail test strip prices, and Medicare CBA payment rates, MCO test strip payments could be
reduced by $3.1 million to $4.5 million. Specifically, reducing MCO test strip prices to the
average retail price or establishing a competitive bidding program similar to the Medicare
program could result in a 49- to 70-percent reduction in the price of test strips paid by the four
New Jersey Medicaid MCOs. As a result, the New Jersey Medicaid program could achieve
potential additional savings through lower monthly Medicaid capitation payments.

Tables 3 and 4 detail cost savings that MCO’s could have achieved by reducing the
reimbursement rates for test strips to the average retail rate or the rate available under the
Medicare CBA program, respectively.




                                                           6
                 Table 3: MCO Cost Savings Achieved by Reducing Reimbursement Rate


                                              New Jersey                Average         Cost Savings
                                             Medicaid MCO              Retail Price     (Difference)
          Reimbursement rate
                                                          $52.04             $26.74              $25.30
          (50-unit pack)
          Reimbursement rate
                                                             1.04               0.53               0.51
          (per unit)
               Total*
                                                    $6,441,851           $3,310,240          $3,131,611
               (6,189,100 units)
          *
              Differences in total calculations are due to rounding.

   Table 4: MCO Cost Savings Achieved by Establishing Competitive Bidding Program

                                                                 Highest Medicare
                                         New Jersey               CBA Payment            Cost Savings
                                        Medicaid MCO                   Rate              (Difference)
  Reimbursement rate
                                                     $52.04                    $15.62                  $36.42
  (50-unit pack)
  Reimbursement rate
                                                        1.04                     0.31                    0.73
  (per unit)
      Total*
                                                $6,441,851                $1,933,475            $4,508,376
      (6,189,100 units)
  *
      Differences in total calculations are due to rounding.

RECOMMENDATIONS

We recommend that the State agency consider:

      •       reducing the Medicaid fee-for-service reimbursement rate for test strips to be comparable
              to the average retail price or establishing a competitive bidding program similar to
              Medicare for the purchase of test strips, which could have resulted in savings to the
              New Jersey Medicaid fee-for-service program of $1.8 million to $2.7 million during the
              period January 1, 2011, to December 31, 2011, and

      •       working with the four Medicaid MCOs to adjust payment rates for test strips to the
              average retail price or to Medicare competitive payment rates, which could have reduced
              MCO test strip prices by a total of $3.1 million to $4.5 million during the period
              January 1, 2011, to December 31, 2011.




                                                                7
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency disagreed with our recommendations.
Regarding our first recommendation, the State agency indicated that, in 2011, it implemented a
plan to enroll most Medicaid-eligible beneficiaries in managed care plans, resulting in more than
90 percent of New Jersey’s Medicaid beneficiaries being enrolled in a Medicaid MCO.
Consequently, according to the State agency, the estimated savings identified in our report would
not have been realized by the fee-for-service program. The State agency also indicated that
almost all test strips sold in New Jersey retail pharmacies are brand-name products for which it
does not have the authority to set upper payment limits. The State agency also believes that
establishing a competitive bidding program would result in a mail-order company becoming the
low bidder and adversely affect a Medicaid beneficiary’s ability to obtain test strips.

Regarding our second recommendation, the State agency indicated that the decision to
implement the recommended MCO test-strip pricing rests with each MCO. Each MCO must
determine whether cost avoidances achieved by its members properly monitoring their blood
glucose levels outweigh concerns regarding members’ test strip acquisition costs.

The State agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain that our findings and
recommendations are valid. Specifically, we arrived at the Medicaid fee-for-service savings
identified in our report by comparing Medicaid fee-for-service payments that the State agency
made for test strips provided during the period January 1, 2011, through December 31, 2011, to
retail test strip prices and to the highest Medicare CBA payment rate. Accordingly, these
amounts represented what the State agency could have saved in 2011 had it reduced its fee-for-
service payment rates for test strips to be comparable to the average retail price or if it
established a competitive bidding program. In addition, although a majority of Medicaid
beneficiaries may be enrolled in an MCO, there are still beneficiaries that are not and for whom
test strips are being reimbursed by the Medicaid fee-for-service program. Therefore, we
maintain that there is still an opportunity for the State agency to achieve savings if it reduces the
Medicaid fee-for-service reimbursement rate for test strips.

The analysis to determine whether savings could be achieved if the State agency reduced fee-for-
service test strip payment rates to retail prices was done at the State agency’s request, as the State
agency was concerned that the Medicare CBA payment rates were low, and it believed retail
prices would be more realistic. We provided this information to allow the State agency to
compare both fee-for-service and MCO test strip payment rates to the price of similar products
available at four major retailers.

We disagree with the State agency’s argument that implementing a competitive bidding program
would adversely affect beneficiaries’ access to test strips. Specifically, other States have
successfully taken steps to lower Medicaid fee-for-service test strip reimbursement rates without
adversely affecting beneficiaries’ access to test strips.



                                                  8
Finally, we acknowledge that the decision to reduce MCO reimbursement rates rests with each
MCO, and we acknowledge the importance of a diabetic beneficiary properly monitoring blood
glucose levels. The State agency indicated that it could use the information to work with the
MCOs to lower MCO test strip payment rates, which could lead to the State agency making
lower monthly Medicaid capitated payments and result in savings to the Medicaid program. Our
findings for the managed care program are limited to cost savings that MCOs could achieve
because we recognize that the price of test strips is just one element of the monthly capitated rate
amounts paid by the State agency. However, we maintain that the State agency could achieve
Medicaid program savings through lower monthly capitated rates by working with the four
Medicaid MCOs to reduce MCO test strip payment rates.




                                                 9
APPENDIX
                                                                                                            Page 1 of 3


                            APPENDIX: STATE AGENCY COMMENTS 





                                           ~tate af ~~&r ID~ruv
CHRIS CHRISTIE                           DEPARtMENT OF HUMAN SBRVICI!S
   Govemor                     DIVISION OF MEDICAL AsSISTANCE AND HEALTH SERVICES
KIM GUADAGNO                                       POBox 7 12
                                                                                                      J ENNIFER V ELEZ
  Ll. Governor                               TllENTON, NJ 08625-0712
                                                                                                       Colftlflissi011o

                                                  June 5, 2013                                        VALER1E HARR
                                                                                                            Dirrctor


          Audit Report Number: A-02-12-01010



         James P. Edert
         Reg ional Inspector General for Audit Services
         Department of Hea lth and Human Services
         Office of Inspector General
         Office of Audit Services Region II
         Jacob K. Javits Federal Building
         26 Federal Plaza - Room 3900
         New York, NY 10278

          Dear Mr. Edert:

         This is in response to your letter dated April 23, 2013, concerning the Department of Health and
         Human Services, Office of the Inspector General's (OIG) draft report entitled "New Jersey
         Medicaid Program Could Achieve Savings by Reducing Home Blood-Glucose Test Strip Prices. ·
         Your letter provides the opportunity to comment on this draft report.

         The draft audit report concluded that New Jersey's Medicaid prog ram could have achieved
         savings of approximately $1.8M to $2.7M during the pe riod January 1, 20 11 through Deeember
         31, 2011 by reducing test strip reimbursement rates to retail rates or by establishing a
         competitive bidding program for test strips. Additionally, the New Jersey Division of Medical
         Assistance & Health Services' (DMAHS) four Managed Care organizations (MCOs) could have
         achieved savings of approximately $3.1 M to $4.5M if they had also reduced test strip
         re imbursement rates to reta il rates or established a competitive bidd ing mail-order program
         similar to the Medicare program . These savings would provide additional savings to the New
         Jersey Medicaid program .

         We appreciate the opportunity to provide this response to the draft OIG audit report . Following
         are the auditors' recommendations and DMAHS 's responses :

          Recommendation 1:

         The OIG re commends that DMAHS consider reducing the Medicaid fee-for-service CFFS)
         reimbursement rate for test strips to be comparable to the average retail price or
         establishing a competitive bidding program similar to Medicare for the purchase of tes t
         strips:
                                                                                                      Page 2 of3



James P. Edert
June 5, 2013
Page 2


DMAHS implemented a plan in Calendar Year (CY) 2011 to enroll most Medicaid-eligible
beneficiaries in managed care plans so that over 90% of the Medica id population is now
enrolled in a Medicaid MCO. Consequently, the estimated savings highlighted in the draft audit
report wou ld not have been realized by the FFS program in CY 2011 or in future years .
Although any savings are important, the State does not agree with the recommendations as
outlined in the following discussions on each recommendation:

•   Reduce Rate to be Compa ra ble to the Averag e Retail Price:

    A lmost all test strips sold in pharmacies are "brand-name• drug products and DMAHS does
    not have the authority to set upper payment limits for "brand-name· drugs when provided as
    pharmacy services. The State supports an "open formulary system" which means DMAHS
    covers all medically necessary drug products. Consequently, DMAHS is unable to proscribe
    the selection of test strip brands in order to encourage the use of lower cost products.

•   Esta bli sh a Competi ti ve B iddi ng Program:

    DMAHS believes that a competitive bidding program will result in a mail-order company ·
    becoming the low bidder which DMAHS strongly believes will adversely impact our clients
    abilit y to obtain test strips.

    DMAHS understands that the impact of the competit ive bid process for Medicare Part 8 in
    New Jersey will not be real ized until July 1, 2013 . The maximum Part 8 reimbursement rate
    for 100 strips will be reduced from $77.90 to $22.47 under the new fee schedule resulting
    from the Medicare competitive bid process. In addition, federal requirements mandated by
    the American Taxpayer Relief Act of 2013 establishes an upper reimbursement limit for retail
    sales of diabetic test strips not to exceed the rates established under the national mail order
    competition for diabetic supplies. The Act also prohibits switching of patients to lower cost
    meters and home delivery of diabetic test strips by non-mail order providers.

    Acquisition costs for most brand-name diabetic test strips far exceed the si ngle payment
    amount determined by the competitive bid process. Since providers servicing dual-eligib les
    are requi red to accept assignment, there is a concern that providers will d iscontinue
    providing diabetic test strips, limiting access to these services. Since the true impact of
    access to care remains undetermined, DMAHS is opposed to moving forward with similar
    re imbursement changes for the State' s Medicaid program.

Recomme ndation 2:

The O IG recommends th at DMAHS w o rk w ith its MCOs to ad just payment rates f or test
strips to th e ave rage retail price or to Medic are's com pet itive pay ment ra tes :

The decision as to whether or not the recommended test strip pricing should be implemented
rests with each MCO. In a capitated MCO contract arrangement, DMAHS anticipates ce rtain
efficiencies intended to reflect opportunities on the part of the MCOs to conta in unnecessary
healthcare costs. In the case of diabetes management, one of the most effective tools is blood
glucose testing. What becomes more im portant is not the unit cost of a test strip, but rather cost
avoidance ach ieved by members properly monitoring their diet and blood glucose levels. It is up
to each MCO to determine whether or not cost avo iding healthcare costs for the treatme nt of
advanced diabetes outweigh MCO concerns regarding acquisition costs of test strips.
                                                                                                  Page 3 of3




James P. Edert
June 5, 2013
Page 3


Thank you for providing DMAHS the opportunity to provide written comments to the
recommendations included in the draft report. If you have any questions, please do not hesitate
to contact me or Richard Hurd at 609-588-2550.

                                            Sincerely,



                                           \(.~
                                            Director

c: Jennifer Velez
   Richard Hurd
